No.-_____
In The Supreme Court of the United States
USAMA JAMIL HAMAMA, ET AL.,
Applicants/Petitioners,
v.
REBECCA ADDUCCI, ET AL.,
Respondents.
Application for Extension of Time to File a Petition
for A Writ of Certiorari to The United States Court
of Appeals for the Sixth Circuit of United States
Court of Appeals
APPLICATION TO THE HONORABLE
SONIA SOTOMAYOR, CIRCUIT JUSTICE

Margo Schlanger
Counsel of Record
Cooperating Attorney, ACLU
Fund of Michigan
625 South State Street
Ann Arbor, MI 48109
734-615-2618

margo.schlanger@gmail.com

APPLICATION FOR EXTENSION OF TIME
To the Honorable Sonia Sotomayor, Associate Justice of the Supreme Court of
the United States and Circuit Justice for the Sixth Circuit:
Pursuant to 28 U.S.C. § 2101(c) and Rules 13.5 and 30.2 of this Court,
Applicants/Petitioners Usama Jamil Hamama, Atheer F. Ali, Ali Al-Dilami, Habil
Nissan, Jihan Asker, Moayad Jalal Barash, Sami Ismael Al-Issawi, Qassim Hashem
Al-Saedy, Abbas Oda Manshad Al-Sokaini, Adel Shaba, Kamiran Taymour, Jony
Jarjiss, Jami Derywosh, Anwar Hamad, and the certified class they represent
(hereafter “Applicants”), pray for a 60-day extension of time to file their petition for
a writ of certiorari in this Court, to and including August 30, 2019. Unless
extended, the time for filing a petition for a writ of certiorari will expire on July 1,
2019.
JUDGMENT FOR WHICH REVIEW IS SOUGHT
The judgment for which review is sought is Hamama, et al. v. Adducci, et al.,
912 F.3d 869 (6th Cir. 2018), which is attached as Exhibit A.
JURISDICTION
The judgment below was in the consolidated appeal from two grants of
preliminary relief in favor of Applicants by the United States District Court for the
Eastern District of Michigan. On July 24, 2017, the district court granted
Applicants’ motion for a preliminary stay of removal/preliminary injunction to stay
removal proceedings by Respondents against a class of Iraqis with final removal
orders. Respondents appealed that order on September 21, 2017 (Appeal 17-2171).

On January 2, 2018, the district court granted Applicants’ motion for preliminary
injunction from continued detention without bond hearings. Respondents appealed
that order on March 2, 2018 (Appeal 18-1233). After briefing and oral argument, the
Sixth Circuit, Judge White dissenting, reversed the district court’s grants of both
preliminary injunctions on December 20, 2018. See Exhibit A. Applicants timely
petitioned for rehearing en banc. The petition for rehearing was denied on April 2,
2019. See Exhibit B. Under Rule 13.1 of this Court, Applicants’ time to petition for
certiorari in this Court expires on July 1, 2019. Applicants file this application for
extension of time more than 10 days in advance of that date. See Sup. Ct. R. 13.5,
30.2. This Court will have jurisdiction over any timely filed petition pursuant to 28
U.S.C. § 1254(1).
NATURE OF THE ACTION
Applicants represent a class of Iraqis, or persons classified by Respondents as
Iraqis, who lived for years in the United States, notwithstanding final orders of
removal, because Iraq refused to accept their repatriation. In June 2017,
Respondents, believing that Iraq would now accept returnees, detained many
members of the class for immediate removal. Country conditions in Iraq had by
then changed drastically since the time of the final removal orders entered against
Applicants, including the exertion of control over significant areas of that nation by
ISIS. Applicants wanted to assert claims for withholding and deferral of removal
under the Convention Against Torture (“CAT”) before an Immigration Judge and/or
Board of Immigration Appeals, but their sudden detention and the imminent

3

removal planned by Respondents made that impossible. Applicants alleged that
they faced persecution, torture or death if removed without an opportunity to
present claims under the CAT before the appropriate immigration authority.
Applicants instituted this action, seeking a stay of removal proceedings to allow for
that opportunity.
Respondents opposed the stay, and moved for dismissal, arguing inter alia
that 8 U.S.C. §1252(g) divested the district court of jurisdiction.1 The district court
held that section 1252(g) would, if operative, strip it of jurisdiction, but further held
that, under the confluence of circumstances here—where sudden detentions
followed decades of Iraq’s refusal to allow repatriation and where country conditions
had radically changed in a way making torture and even death a significant
likelihood without time to pursue relief under the CAT from the immigration
courts—the statute as applied suspended the writ of habeas corpus in violation of
the Constitution. The district court preliminarily barred Respondents from
returning any Iraqis until they had been afforded a meaningful opportunity to
present claims for relief from their final orders of removal through the immigration
courts.
In October 2017 Applicants amended their complaint to assert challenges to
their continued detention, and in November 2017 moved for a preliminary
injunction seeking relief from detention. The district court granted preliminary
That statute provides that “no court shall have jurisdiction to hear any cause or
claim by or on behalf of any alien arising from the decision or action by the Attorney
General to commence proceedings, adjudicate cases, or execute removal orders
against any alien under this chapter.”
1

4

relief providing that several sub-classes of detained class members be given bond
hearings after six months of detention.
Respondents timely appealed from each of these two orders and, as noted
above, the Sixth Circuit Court of Appeals consolidated the two appeals. At oral
argument the court raised the question of whether 8 U.S.C. §1252(f)(1) applied and,
if so, whether it precluded class-wide injunctive relief, an issue never raised by
Respondents in the district court.2 The parties provided additional letter briefs
addressing that and several other issues.
On December 20, 2018 the appellate court reversed the grants of preliminary
injunction, over a dissent. With respect to the stay of removal, the court held both
that 8 U.S.C. §1252(g) divested the district court of jurisdiction, and that this
provision does not violate the suspension clause because the habeas writ does not
apply where Applicants are bringing withholding and torture claims, which do not
guarantee a right to stay in the United States but rather preclude removal to a
certain country. With respect to the appeal of the order granting bond hearings, the
court held that 8 U.S.C. §1252(f)(1) stripped the district court of authority to enter
such class-wide injunctive relief.
REASONS JUSTIFYING AN EXTENSION OF TIME
Applicants respectfully submit that good cause exists to justify the requested
60-day extension of time to petition for a writ of certiorari.

That statute provides that “no court…shall have jurisdiction to enjoin or restrain
the operations of [8 U.S.C. §§1221-31]…other than with respect to the application of
such provisions to an individual alien against whom proceedings under such part
have been initiated.”
2

5

The appellate court’s ruling on the scope of relief in the removal context
raises issues similar to those in the recent Ninth Circuit opinion in Thuraissigiam
v. United States Dept. of Homeland Security, 917 F.3d 1097 (9th Cir 2019). Counsel
for Petitioner in that case are also counsel for Applicants here. The government has
indicated its intent to seek certiorari in that action, and its petition is due July 5,
2019. See Department of Homeland Security v. Thuraissigiam, 18-55313, application
(18A1219). Applicants wish to have time to review and consider that petition before
any filing in this case, as doing so may help sharpen and clarify whether and what
issues need be presented for review.
In addition, counsel for Applicants have numerous other significant and timesensitive obligations, both in this case and others. Respondents have appealed
another order entered by the district court in this matter, and Applicants’ brief is
due in the Sixth Circuit on July 19, 2019. Litigation in the district court continues
unabated with some 560 docket entries to date. Senior counsel here are juggling
multiple competing obligations including deadlines in a 44,000-member class action,
John Does #1-6 v. Whitmer, 2:16-cv-13137 (E.D. Mich.), to comprehensively revise
Michigan’s sex offender registration statute; significant work on injunction
compliance in Ms. L. v. United States Immigration and Customs Enforcement, 18-cv428 (S.D. Cal.) (class action challenging family separation); briefing due June 19,
2019, in the Ninth Circuit Court of Appeals in Innovation Law Lab v. McAleenan,
No. 19-15716 (9th Cir.) (challenging policy requiring asylum seekers to return to
Mexico); and briefing due June 27, 2019 on motions to dismiss and for a preliminary

6

